No. 19-332

In The
Supreme Court of the
United States
Steven Davis et, al„
Petitioner
V.
Bank of America N. A. et al.,
Respondents
PETITION FOR REHEARING
Supreme Court Rule 44.2
Certification
Word Count
As required by Supreme Court Rule 44.2 Rehearing, I
certify that the document filed with this certification,
Petition for Rehearing, contains 2114 words, excluding the
parts of the document that are exempt according to the
word count function of the word-processing program used to
prepare it.
Dated: November 6, 2019
Sonya Davis

Petitioners preparer of document.

PETITION FOR REHEARING
Certificate of Mailing
As required by Supreme Court, I certify that three copies of
the Petition for Rehearing are mailed, prepaid, priority
mail with tracking, to the Defendants' Attorney's on
November 9, 2019.

